National Endowment for the Arts
                                  SEMIANNUAL REPORT TO THE CONGRESS

                                     October 1, 2010 – March 31, 2011

                                        Office of Inspector General
SEMIANNUAL REPORT TO THE CONGRESS
    OCTOBER 1, 2010 – MARCH 31, 2011

     OFFICE OF INSPECTOR GENERAL

   NATIONAL ENDOWMENT FOR THE ARTS
                                                                         April 29, 2011




MEMORANDUM

TO:           Rocco Landesman
              Chairman

FROM:         Tonie Jones
              Inspector General

SUBJECT:      Semiannual Report to the Congress: October 1, 2010 – March 31, 2011

The Inspector General Act of 1978 (Public Law 95-452), as amended, calls for the preparation
of semiannual reports to the Congress summarizing the activities of the Office of Inspector
General (OIG) for the six-month periods ending each March 31 and September 30. I am
pleased to enclose the report for the period from October 1, 2010 to March 31, 2011.

The Inspector General’s report is intended to cover audits, inspections, evaluations,
investigations and other reviews conducted by the OIG as well as our review of the OMB
Circular A-133 audits conducted by independent auditors. The report also indicates the status
of management decisions whether to implement or not to implement recommendations made by
the OIG. The former President’s Council on Integrity and Efficiency developed the reporting
formats for Tables I and II to ensure consistent presentation by the Federal agencies. The
tables provide only summary totals and do not include a breakdown by auditee.

The Act requires that you transmit this report to the appropriate committees of the Congress
within 30 days of receipt, together with any comments you may wish to make. Comments that
you might offer should be included in your "Report on Final Action," a management report that is
required to be submitted along with the Inspector General’s report. We will work closely with
your staff to assist in the preparation of the management report. The due date for submission of
both reports is
May 30, 2011.

I appreciate the continuing support we have received from the Chairman’s Office and your
managers throughout the Agency. Working together, I believe we have taken positive steps to
improve Agency programs and operations. We look forward to continuing these efforts.
                                   TABLE OF CONTENTS
                                                                                    PAGE


NATIONAL ENDOWMENT FOR THE ARTS                                                      1

OFFICE OF INSPECTOR GENERAL                                                          1

SUMMARY OF WORK COMPLETED BY THE OIG                                                 2

Audits/Inspections/Evaluations/Reviews                                               2
Audit Resolution                                                                     2
Inspections                                                                          2
Investigations                                                                       2
Audit of the NEA Fiscal Year 2011 Financial Statements                               2
NEA’s Compliance with Federal Information Security Management Act of 2002 (FISMA)    2
Review of Legislation, Rules, Regulations and Other Issuances                        3
Technical Assistance                                                                 3
Web Site                                                                             3
Other Activities                                                                     3


SECTIONS OF REPORT                                                                   4

SECTION 1 - Significant Problems, Abuses and Deficiencies                            4

SECTION 2 - Recommendations for Corrective Action                                    4

SECTION 3 - Recommendations in Previous Reports on Which Corrective Action
            Has Not Been Implemented                                                 4

SECTION 4 - Matters Referred to Prosecuting Authorities                              4

SECTION 5 - Denials of Access to Records                                             4

SECTION 6 - Listing of Reports Issued and Hotline Contacts                           5

SECTION 7 - Listing of Particularly Significant Reports                              6

SECTION 8 - Statistical Tables Showing Total Number of Audit Reports, Inspection
            Reports, and Evaluation Reports and the Dollar Value of Questioned
            Costs                                                                    6

SECTION 9 - Statistical Tables Showing Total Number of Audit Reports, Inspection
            Reports, and Evaluation Reports and the Dollar Value of
            Recommendations that Funds be Put to Better Use by Management            6




                                                                                           i
                                   TABLE OF CONTENTS

                                                                                PAGE


SECTION 10 - Audit Reports, Inspection Reports, and Evaluation Reports Issued
             Before the Commencement of the Reporting Period for Which
             No Management Decision Has Been Made by the End of the
             Reporting Period                                                    6

SECTION 11 - Significant Revised Management Decisions Made During the Period     6

SECTION 12 - Significant Management Decisions With Which the Inspector
             General Disagrees                                                   6

TABLE I - Inspector General Issued Reports With Questioned Costs                 7

TABLE II - Inspector General Issued Reports With Recommendations That Funds
           Be Put To Better Use                                                  8

Definitions of Terms Used                                                        9

Reporting Wrongful Acts                                                         10




                                                                                       ii
NATIONAL ENDOWMENT FOR THE ARTS
Founded in 1965, the National Endowment for the Arts (NEA) offers assistance to a wide range of
non-profit organizations and individuals that carry out arts programming, as well as to state arts
agencies. The NEA supports exemplary projects of excellence in the artistic disciplines of artist
communities, dance, design, folk and traditional arts, literature, media arts, museums, music,
musical theater, opera, presenting, theater, and visual arts, as well as for arts education projects
and local arts agencies. Grants are awarded for specific projects rather than for general operating
or seasonal support. Most NEA grants are matched dollar for dollar with non-federal funds. For FY
2010, the NEA received an appropriation of $167.5 million from the Omnibus Appropriations Act of
2010. As of March 31, 2011, the Federal Government was on a Continuing Resolution for FY 2011
appropriations. In addition, the NEA received $50 million in 2009 under the American Recovery
and Reinvestment Act of 2009 (Recovery Act); these additional funds do not require matching.

OFFICE OF INSPECTOR GENERAL
The Inspector General Act Amendments of 1988, Public Law 100-504, amended the Inspector
General Act of 1978, Public Law 95-452, and required the establishment of independent Offices of
Inspector General (OIG) at several designated Federal entities and establishments, including the
National Endowment for the Arts. The mission of the OIG is to:

   -   Conduct and supervise independent and objective audits, inspections and evaluations
       relating to NEA programs and operations;

   -   Promote economy, effectiveness, and efficiency within the NEA;

   -   Prevent and detect fraud, waste, and abuse in NEA programs and operations;

   -   Review and make recommendations regarding existing and proposed legislation and
       regulations relating to NEA programs and operations; and

   -   Keep the NEA Chairman and the Congress fully and currently informed of problems in
       Agency programs and operations.

On October 14, 2008, the President signed the Inspector General Reform Act of 2008, Public Law
110-409. The 2008 Act amends the previous IG Act of 1978 by enhancing the independence of the
Inspectors General and creating a Council of the Inspectors General on Integrity and Efficiency.

This semiannual report summarizes the OIG's major activities, initiatives, and results for the six-
month period ending March 31, 2011. In January 2011, a new Inspector General was appointed
and a new auditor was hired. The OIG now consists of three staff members, the Inspector General
and two auditors. The OIG is actively recruiting to fill the senior auditor’s position. There is no
investigator or general counsel on the staff. To provide a reactive investigative capability, we have
a Memorandum of Understanding with the Inspector General of the General Services
Administration (GSA) whereby the GSA's OIG agrees to provide investigative coverage for us on a
reimbursable basis as needed. (No investigative coverage from GSA was needed during the recent
six-month period.) We also have a Memorandum of Understanding with the National Credit Union
Administration’s (NCUA) Office of Inspector General that details procedures to be used for
providing the OIG with legal services pursuant to the new requirements reflected in the 2008 Act.
An NCUA OIG staff member has been assigned to provide such services on an as-needed basis.


                                                                                                        1
SUMMARY OF WORK COMPLETED BY THE OIG
During the six-month period ending March 31, 2011, the OIG conducted the following audits,
inspections, evaluations, reviews, investigations, and other activities.

Audits/Inspections/Evaluations/Reviews

During the recent semiannual period, the OIG issued three reports; two based on evaluations
performed by OIG personnel and the financial statement audit report. Our reports contained 19
recommendations related to systems deficiencies at the NEA. Five of those recommendations
were cleared during this reporting period. Corrective actions for the 14 remaining recommendations
are in process.

Audit Resolution

At the beginning of the six-month period, there were four reports awaiting management decisions to
allow or disallow questioned costs of $1,654,470 with potential refunds of $467,115. All of the
organizations have submitted additional documentation to support the questioned costs. A
management decision cannot be made until the reviews have been completed. (See Table I)

During the period, none of the newly issued reports identified any questioned costs or potential
refunds. Therefore, at the end of the period, four reports remained outstanding with questioned
costs of $1,654,470 and potential refunds of $467,115. (See Table I)

Inspections

The OIG did not conduct any inspections during the recent six-month period.

Investigations

The OIG did not open any new allegation cases during the recent six-month period. The one case
opened prior to the start of the period remained open at the end of the period.

Audit of the NEA Fiscal Year 2011 Financial Statements

The Accountability of Tax Dollars Act of 2002 requires the NEA Office of Inspector General or an
independent external auditor, as determined by the Inspector General, to audit the agency financial
statements. Under a competitively awarded contract monitored by the OIG, Leon Snead &
Company, an independent certified public accounting and management consulting firm, received a
one year contract, with a four year option, in January 2011 to audit the NEA’s financial statements
and will be performing the 2011 audit. The audit will be conducted following Generally Accepted
Government Auditing Standards (GAGAS) and OMB Bulletin No. 07-04, Audit Requirements for
Federal Financial Statements, as revised. In addition, the firm will provide reports on internal
controls and compliance with laws and regulations for matters relevant to the financial statement
audit. The entrance conference is scheduled in April 2011.

NEA’s Compliance with the Federal Information Security Management Act of 2002
(FISMA)

FISMA requires that each federal agency develop, document, and implement an agency-wide
program for providing security for the information and information systems that support the
                                                                                                      2
operations and assets of the agency, including those provided or managed by another agency,
contractor, or other source.

The OIG completed a full FISMA evaluation in FY 2010 using the most recent applicable FISMA
requirements and guidelines published by the OMB and the National Institute of Standards and
Technology. The assessment found that although NEA made progress in complying with FISMA,
some additional improvements were needed. The OIG made seven recommendations. During this
reporting period, the NEA completed corrective actions for five of the recommendations. Corrective
actions for the two remaining recommendations are in process.

Review of Legislation, Rules, Regulations and Other Issuances

The OIG is required to review and comment on proposed legislation and regulations for their
potential impact on the Agency and its operations. During this reporting period, the OIG provided
analyses and written commentaries on Agency and other government publications/reports and
regulations.

Technical Assistance

The OIG provided technical assistance to NEA grantees and their independent auditors. Our efforts
included, for example, clarifying and interpreting the audit requirements of OMB Circular A-133,
“Audits of States, Local Governments, and Non-Profit Organizations," and advising some of the
first-time and smaller organizations on implementing practical accounting systems and internal
controls sufficient to assure compliance with their grant agreements.

The OIG also assisted Agency staff with technical issues related to auditing, accounting, and audit
followup.

Web Site

The OIG maintains an ongoing Internet presence (www.arts.gov/about/OIG/Contents.html) to assist
and inform NEA grantees and Agency employees. The site includes pages for Reports; Recovery
Act including a section for Training and Resources; Reporting Fraud, Waste and Abuse; Career
Opportunities; External Peer Reviews of the OIG and Other Resources.

Other Activities

During this period, the OIG took part in the activities of the Council on Inspectors General for
Integrity and Efficiency (Council), and allocated resources for responding to information requests
from and for the Congress and other agencies. We have also participated in various efforts by the
Council and other federal agencies to develop effective oversight strategies for Recovery Act
activities. We continued our proactive oversight of NEA’s management of its Recovery Act funds
with an emphasis on the accuracy of data and outreach to both the staff and grant recipients.

The Government Accountability Office’s Government Accounting Standards requires audit
organizations that perform audits or attestation engagements to have an appropriate system of
quality control and to undergo external peer reviews at least once every 3 years. Federal audit
organizations can receive a rating of Pass, Pass with deficiencies, or fail. A peer review of the OIG
was conducted August 2010 by the Federal Trade Commission Office of Inspector General. The
OIG received a rating of Pass.


                                                                                                        3
                                 SECTIONS OF REPORT
The following sections of this report discuss the 12 areas specifically required to be included
according to Section 5(a) of the IG Act of 1978, as amended. Table I shows Inspector General
issued reports with questioned costs and Table II shows that there were no Inspector General
issued reports with recommendations that funds be put to better use.

SECTION 1 – Significant Problems,                    SECTION 2 – Recommendations for
Abuses and Deficiencies                              Corrective Action

Audits, evaluations and other reviews                To assist grantees in correcting or avoiding
conducted by OIG personnel during the                the deficiencies identified in Section 1, the
current and prior periods have disclosed a           OIG utilizes two “Financial Management
few instances of deficient financial                 Guides,” one for non-profit organizations and
management practices in some organizations           the other for state and local governments.
that received NEA grants. Among these                The guides are not offered as complete
were:                                                manuals of procedures; rather, they are
                                                     intended to provide practical information on
•   Reported grant project costs did not agree       what is expected from grantees in terms of
    with the accounting records, e.g., financial     fiscal accountability. The guides are available
    status reports were not always prepared          at www.arts.gov/about/OIG/Guidance.html.
    directly from the general ledger or
    subsidiary ledgers or from worksheets            The guides discuss accountability standards
    reconciled to the accounts;                      in the areas of financial management, internal
                                                     controls, audit, and reporting. The guides
•   Personnel costs charged to grant projects        also contain sections on unallowable costs
    were not supported by adequate                   and shortcomings to avoid. In addition, the
    documentation, e.g., personnel activity          guides include short lists of useful references
    reports were not maintained to support           and some sample documentation forms.
    allocations of personnel costs to NEA
    projects when required;                          SECTION 3 – Recommendations in
                                                     Previous Reports on Which Corrective
•   The amount allocated to grant projects for       Action Has Not Been Implemented
    common (indirect) costs which benefited
    all projects and activities of the               There were no significant recommendations
    organization was not supported by                in previous reports on which corrective action
    adequate documentation; and                      has not been implemented.

                                                     SECTION 4 – Matters Referred to
•   Grantees needed to improve internal
                                                     Prosecuting Authorities
    controls, such as ensuring proper
    separation of duties to safeguard                No matters were referred to prosecuting
    resources and including procedures for           authorities during this reporting period.
    comparing actual costs with the budget.
                                                     SECTION 5 – Denials of Access to Records

                                                     No denials of access to records occurred
                                                     during this reporting period.




                                                                                                  4
          SECTION 6 – Listing of Reports Issued and OIG Hotline Contacts



REPORT                                                                                                                                DATE OF
NUMBER                                                            TITLE                                                               REPORT


                                                                  Special Reviews


R-11-01   Fiscal Year 2010 Evaluation of NEA’s Compliance with the Federal Information Security
          Management Act of 2002 ................................................................................................................................. 11/15/10

R-11-02   Review of National Endowment for the Arts’ Control Over Computer-Related Equipment.............................. 01/25/11



                                                                               Audit


A-11-01   National Endowment for the Arts Audit of Financial Statements as of and for the Years Ended
          September 30, 2010 and 2009 ........................................................................................................................ 11/9/10


                                                              TOTAL REPORTS – 3



                                                                   OIG Hotline Contacts


                         Telephone Calls………………………………………………………………….                                                               4
                         Email ……………………………………………………………………………..                                                                   1
                         Standard Mail…………………………………………………………………….                                                                2
                         Referred by Other Sources……………………………………………………..                                                         1
                         Fax………………………………………………………………………………..                                                                     0

                                                            TOTAL CONTACTS – 8




                                                                                                                                                                5
    SECTION 7 – Listing of Particularly               SECTION 10 – Audit Reports, Inspection
    Significant Reports                               Reports, and Evaluation Reports Issued
                                                      Before the Commencement of the Reporting
    There were no particularly significant reports    Period for Which No Management Decision
    during the reporting period.                      Has Been Made by the End of the Reporting
    .                                                 Period
     SECTION 8 – Statistical Tables Showing
    Total Number of Audit Reports, Inspection         As shown on Table I, there were four audit
    Reports, and Evaluation Reports and the           reports issued before the commencement of the
    Dollar Value of Questioned Costs                  reporting period for which no management
                                                      decision has been made by the end of the
    Table I of this report presents the statistical   reporting period.
    information showing the total number of
    audit reports, inspection reports, and            SECTION 11 – Significant Revised
    evaluation reports and the total dollar value     Management Decisions Made During the
    of questioned costs.                              Period

    SECTION 9 – Statistical Tables Showing            No significant revised management decisions
    Total Number of Audit Reports, Inspection         were made during the reporting period.
    Reports, and Evaluation Reports and the
    Dollar Value of Recommendations that              SECTION 12 – Significant Management
    Funds be Put to Better Use by                     Decisions With Which the Inspector General
    Management                                        Disagrees

    As shown on Table II, there were no audit         There were no significant management
    reports, inspection reports and evaluation        decisions that the Inspector General disagreed
    reports with recommendations that funds be        with during the reporting period.
    put to better use by management.




\




                                                                                                 6
                                                      TABLE I

                      INSPECTOR GENERAL ISSUED REPORTS
                            WITH QUESTIONED COSTS

                                                                      QUESTIONED UNSUPPORTED                    POTENTIAL
                                                      NUMBER              COSTS               COSTS              REFUNDS1
  A. For which no management decision
      has been made by the commencement
      of the reporting period                               4             1,654,470         (1,654,470)             467,115


  B. Which were issued during the reporting
      period                                               0                        0                 (0)                   0


      Subtotals (A + B)                                     4             1,654,470         (1,654,470)             467,115


  C. For which a management decision was
      made during the reporting period                      0                       0                 (0)                   0


      (i)     Dollar value of disallowed costs              0                       0                 (0)                   0


      (ii)    Dollar value of costs not
             disallowed                                     0                       0                 (0)                   0


  D. For which no management decision has
      been made by the end of the reporting
      period                                                4             1,654,470         (1,654,470)             467,115


      Reports for which no management
      decision was made within six months of
      issuance                                              4            1 ,654,470          (165,4470)             467,115




1/ The potential refund amount usually will not equal the questioned cost amount because matching requirements must be

   considered and the grantee may be either under or over matched. In addition, historically, the potential refund generally is
   reduced significantly as a result of the audit followup process, which includes examination of documentation submitted by the
   grantee.




                                                                                                                                  7
                                       TABLE II

         INSPECTOR GENERAL ISSUED REPORTS
WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                             DOLLAR
                                                    NUMBER    VALUE

 A. For which no management decision has been
    made by the commencement of the reporting
    period                                            0        0

 B. Which were issued during the reporting
    period                                            0        0

    Subtotals (A + B)                                 0        0

 C. For which a management decision was made
    during the reporting period                       0        0

    (i)    dollar value of recommendations
           that were agreed to by management          0        0

           - based on proposed management
             action                                   0        0

           - based on proposed legislative action     0        0

    (ii)   dollar value of recommendations
           that were not agreed to by management      0        0

 D. For which no management decision has been
    made by the end of the reporting period           0        0

    Reports for which no management decision
    was made within six months of issuance            0        0




                                                                      8
                            DEFINITIONS OF TERMS USED

The following definitions apply to terms used in reporting audit statistics:


Questioned Cost                        A cost that the Office of Inspector General (OIG)
                                       questioned because of alleged violation with a provision of
                                       a law, regulation, contract, or other agreement or
                                       document governing the expenditure of funds; such cost is
                                       not supported by adequate documentation; or the
                                       expenditure of funds for the intended purpose is
                                       unnecessary or unreasonable.

Unsupported Cost                       A cost which the OIG questioned because the cost was not
                                       supported by adequate documentation at the time of the
                                       audit.

Disallowed Cost                        A questioned cost that management has sustained or
                                       agreed should not be charged to the NEA grant or
                                       cooperative agreement.

Funds Be Put To Better Use             A recommendation made by the OIG that funds could be
                                       used more efficiently if management took actions to
                                       implement and complete the recommendation.

Management Decision                    Management's evaluation of the findings and
                                       recommendations contained in the audit report and the
                                       issuance of management’s final decision, including actions
                                       to be taken. Interim decisions and actions are not
                                       considered final management decisions for the purpose of
                                       the tables in this report.

Final Action                           The completion of all actions that management has
                                       concluded in its management decision with respect to audit
                                       findings and recommendations. If management concluded
                                       that no actions were necessary, final action occurs when a
                                       management decision was made.




                                                                                                 9
                    REPORTING WRONGFUL ACTS
Anyone, including Agency employees, who learns about or has reason to suspect the
occurrence of any unlawful or improper activity related to NEA operations or programs, should
contact the OIG immediately. A complaint/referral may be reported using any of the following
methods:

               Toll-free OIG Hotline: 1-877-535-7448
               Local Calls: 202-682-5479
               Fax: 202-682-5649
               Email: oig@arts.gov
               Website: www.arts.gov/about/oig/fraud.html



You may also visit or write us at the National Endowment for the Arts, Office of Inspector
General, Room 601, 1100 Pennsylvania Avenue, NW, Washington, DC 20506.

When contacting the OIG, it will help if you have answers to the following questions:

   •   Who are the parties involved (names, addresses and phone numbers if possible);
   •   What is the suspected activity (specific facts of the wrongdoing);
   •   When and where did the wrongdoing occur;
   •   How did you learn about the activity (from a third party, actual observation, conclusion
       drawn from observing or performing different activities, etc.); and
   •   Where can you be contacted or when will you contact us again.

The OIG will not disclose the identity of a complainant or informant without consent, unless the
Inspector General determines that such disclosure is unavoidable during the course of the
investigation. You may remain anonymous, if you choose. Federal employees are protected
against reprisal for disclosing information to the Inspector General unless such disclosure was
knowingly false.




                                                                                                  10
   NATIONAL ENDOWMENT FOR THE ARTS




     CHAIRMAN’S SEMIANNUAL REPORT
            ON FINAL ACTION
RESULTING FROM AUDIT REPORTS, INSPECTION
   REPORTS, AND EVALUATION REPORTS

   October 1, 2010 through March 31, 2011




                 Submitted
                 May 2011
                             TABLE OF CONTENTS




INTRODUCTION                                                               1

REPORT ON FINAL ACTION RESULTING FROM AUDIT REPORTS,
INSPECTION REPORTS AND EVALUATION REPORTS

  Section 1    Comments Relating to the Inspector General's Report         2

  Section 2    Management Report on Final Action on Audits, Inspections,
               and Evaluations with Disallowed Costs for the Six-Month
               Period Ending March 31, 2011                                3

  Section 3    Management Report on Final Action on Audits, Inspections,
               and Evaluations with Recommendations to Put Funds to
               Better Use for the Six-Month Period Ending March 31, 2011   3

  Section 4    Audit Reports, Inspection Reports, and Evaluation Reports
               for Which a Management Decision Was Made Prior to
               April 1, 2011, but on Which Final Action Has Not Occurred   3

  Table A      Management Report on Final Action on Audits, Inspections,
               and Evaluations with Disallowed Costs for the Six-Month
               Period Ending March 31, 2011                                4

  Table B      Management Report on Final Action on Audits, Inspections,
               and Evaluations with Recommendations to Put Funds to
               Better Use for the Six-Month Period Ending March 31, 2011   5
                                  INTRODUCTION


The Inspector General Act of 1978, as amended by the Inspector General Act Amendments of
1988 (Public Law 100-504), established independent, objective units within Federal agencies
for the following purposes:

   •   To supervise and conduct audits and investigations of agency programs and operations;

   •   To lead, coordinate, and recommend policies for promoting economy, efficiency, and
       effectiveness in the administration of programs and operations, and to prevent and
       detect fraud and abuse therein; and

   •   To keep the agency head and the Congress informed about related problems and
       deficiencies and associated corrective action.

On October 14, 2008, the President signed the Inspector General Reform Act of 2008 (Public
Law 110-409). The 2008 Act amends the previous IG Act of 1978 to enhance the
independence of the Inspectors General, to create a Council of the Inspectors General on
Integrity and Efficiency, and for other purposes.

Section 106(a) of P.L. 100-504 requires the Inspector General to report semiannually on the
office’s activities for the preceding six-month periods ending March 31st and September 30th.
The report must (1) address significant problems, abuses, and deficiencies in the management
of agency programs and operations identified during the reporting period, and (2) identify
recommendations for corrective action. Section 106(b) directs the Inspector General to furnish
this report within 30 days to the agency head, who is required to prepare a separate report on
management decisions resulting from audit reports, inspection reports, evaluation reports, the
status of disallowed costs, and final actions taken during the corresponding period, including
any comments deemed appropriate. The agency head must transmit both reports to the
Congress within the ensuing 30 days.

Accordingly, the Chairman presents the Arts Endowment’s management report for the period
October 1, 2010 through March 31, 2011.




                                              1
        REPORT ON FINAL ACTION RESULTING FROM AUDIT REPORTS,
            INSPECTION REPORTS, AND EVALUATION REPORTS


Section 1.   Comments Relating to the Inspector General's Report

             A. Comments on OIG’s Summary Section

             Audits/Inspections/Evaluations/Reviews. As reported in the Inspector General’s
             Semiannual Report to the Congress, at the end of the reporting period there were
             four outstanding reports with questioned costs and potential refunds; management
             continues to work with the auditees to resolve the outstanding audit issues.

             When the Audit Followup Official disallows questioned costs, it is typically
             because the grantee or cooperator has responded inadequately to the Arts
             Endowment’s request for supporting documentation, such as canceled checks,
             invoices, contracts, personnel activity reports, or testimonial evidence. Agency
             funds may represent only a small portion of an awardee’s total project costs.
             Deficiencies normally are resolved through the Agency’s audit resolution process,
             and refunds are infrequent.

             Technical Assistance: Improved Oversight. The Arts Endowment places a high
             priority on ensuring that employees are well informed about policies, procedures,
             and requirements related to grants administration and audits. The Grants &
             Contracts Office routinely conducts training on various topics for Agency staff,
             including targeted one-on-one training as necessary. During the period, the
             Grants & Contracts Office and the OIG continued to provide technical assistance
             and compliance evaluations for grantees. The Grants & Contracts Office also
             updated internal directives and guidance documents.

             Web Site. The Arts Endowment continues to provide its “My Grant at a Glance”
             feature on the Agency Web site. In addition to tracking the status of payment
             requests online, grantees can obtain historical reports of their grants back to at
             least 1988. The reports include the amount of the grant, the period of support, and
             a brief project description. The Arts Endowment continues to require electronic
             application submission through Grants.gov across all Arts Endowment programs;
             applicants unable to apply electronically through Grants.gov must request
             permission from the Agency to submit applications through an alternative
             method.

             In addition, the Agency launched a new online reporting tool, required for direct
             organizational grantees, that significantly enhances the Agency’s ability to track
             the geographic location of supported project activities.




                                               2
             Other Activities. Arts Endowment staff continued to work closely with the OIG
             on issues of mutual interest, such as the independent audit of the Agency’s
             financial statements for fiscal year 2010, and Recovery Act activities. As
             mentioned in the Semiannual Report, during this period the OIG consisted of the
             Inspector General and two auditors. The Agency is now actively recruiting to fill
             a senior auditor position.

             B. Comments on OIG’s Sections 1 and 2

             OIG audit, inspection, and evaluation reports on Arts Endowment awardees are
             based upon reviews conducted by the OIG itself or upon OIG analysis of audits
             completed by outside auditors. The outside audits may be performed by State
             audit agencies, by other Federal agencies (generally the agency providing the
             greatest amount of Federal funding to an organization also supported by the Arts
             Endowment), or by independent public accountants engaged by awardees.

Section 2.   Management Report on Final Action on Audits, Inspections, and Evaluations
             with Disallowed Costs for the Six-Month Period Ending March 31, 2011
             (Section 8 of the OIG Report)

             There were no audit, inspection, or evaluation reports with management decisions
             made that were awaiting final action at the beginning of the period. (See Table A).

Section 3.   Management Report on Final Action on Audits, Inspections, and Evaluations
             with Recommendations to Put Funds to Better Use for the Six-Month Period
             Ending March 31, 2011 (Section 9 of the OIG report)

             There were no audits, inspections, and evaluations with recommendations to put
             funds to better use awaiting final action as of March 31, 2011 (see Table B).

Section 4.   Audit Reports, Inspection Reports, and Evaluation Reports for Which a
             Management Decision Was Made Prior to April 1, 2011, but on Which Final
             Action Has Not Occurred

             There were no audit, inspection, or evaluation reports for which a management
             decision was made prior to April 1, 2011, on which final action has not yet
             occurred.




                                               3
                                                          TABLE A

                         MANAGEMENT REPORT ON FINAL ACTION
           ON AUDITS, INSPECTIONS, AND EVALUATIONS WITH DISALLOWED COSTS
                   FOR THE SIX-MONTH PERIOD ENDING MARCH 31, 2011


                                                                       # OF            DISALLOWED                 POTENTIAL
                                 ITEM                                REPORTS              COSTS                   REFUNDS

A.    Audit/inspection/evaluation reports with
      management decisions on which final action
      had not been completed at the beginning of
      the reporting period. See Note 1.                                    0                            $0                      $0

B. Audit/inspection/evaluation reports on which
   management decisions were made during the
   reporting period. See Note 2.                                           0                              0                     0

     Subtotal (A+B)                                                        0                            $0                      $0

C. Audit/inspection/evaluation reports on which final
   action was taken during the reporting period,
   including:

     i.    The dollar value of disallowed costs that
           were recovered by management through:

            a. Collection & offsets                                        0                            $0                      $0
           b. Property                                                     0                              0                      0
           c. Other                                                        0                              0                     0

     ii.    The dollar value of disallowed costs that
            were written off by management.                                0                              0                      0

     Subtotal (i + ii) See Note 3                                          0                            $0                      $0

D. Audit/inspection/evaluation reports for which no final
   action has been taken by the end of the reporting
   period. (A+B-C) See Note 4.                                             0                            $0                      $0

Notes:
  1. Reports in which management has made a decision to disallow costs; however, final actions (e.g., collection, write-offs)
       were not completed by the beginning of the reporting period.
  2. Reports in which management has made a decision, during the reporting period, to disallow costs.
  3. Reports in which final actions were completed during the reporting period.
  4. Reports in which management has made a decision to disallow costs; however, final action was not completed by the end
       of the reporting period.




                                                                4
                                              TABLE B

    MANAGEMENT REPORT ON FINAL ACTION ON AUDITS, INSPECTIONS,
AND EVALUATIONS WITH RECOMMENDATIONS TO PUT FUNDS TO BETTER USE
         FOR THE SIX-MONTH PERIOD ENDING MARCH 31, 2011

                                                                            FUNDS TO BE
                                                                    # OF      PUT TO
                                 ITEM                             REPORTS   BETTER USE


   A.   Audit/inspection/evaluation reports with management
        decisions on which final action had not been taken at
        the beginning of the reporting period.                       0          $0


   B.   Audit/inspection/evaluation reports on which
        management decisions were made during the period.            0           0

        Subtotal (A+B)                                               0           0


   C. Audit/inspection/evaluation reports on which final action
      was taken during the period:


        i. Dollar value of recommendations
           implemented:

           a. Based on management action                             0           0
           b. Based on proposed legislative action                   0           0


        ii. Dollar value of recommendations not
            implemented                                              0           0


        Subtotal (i+ii)                                              0           0

   D. Audit/inspection/evaluation reports needing final action
      at end of the period. (A+B-C)                                  0          $0




                                                  5
